DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General


     Review of FEMA Internal Controls for
         Funding Administrative Cost
       under State Management Grants




        (Ex




 OIG-07-21                 January 2007
 Additional Information and Copies

 To obtain additional copies of this report, call the Office of Inspector General (OIG) at
 (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
 www.dhs.gov/oig.


 OIG Hotline

 To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
 or noncriminal misconduct relative to department programs or operations, call the
 OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
 STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
 Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
 DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
 and caller.




Department of Homeland Security Fiscal Year 2006 Performance and Accountability Report   43
